No. 20-1088

IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________
DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the
Maine Department of Education,
Respondent.
_______________
On Writ Of Certiorari To The United States
Court Of Appeals For The First Circuit
_______________
BRIEF OF INNOVATIVE SCHOOLS
AS AMICI CURIAE
IN SUPPORT OF PETITIONERS
_______________
ALLYSON N. HO
Counsel of Record
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP GIBSON, DUNN & CRUTCHER LLP
2100 McKinney Avenue,
333 South Grand Avenue
Los Angeles, California 90071 Suite 1100
Dallas, Texas 75201
(213) 229-7204
(214) 698-3100
seckman@gibsondunn.com
aho@gibsondunn.com
JOHN MATTHEW BUTLER
MACEY L. OLAVE
GIBSON, DUNN & CRUTCHER LLP GIBSON, DUNN & CRUTCHER LLP
555 Mission Street, Suite 3000 1050 Connecticut Avenue, NW
San Francisco, California 94105 Washington, D.C. 20036
(415) 393-8200
(202) 955-8500
molave@gibsondunn.com
mbutler@gibsondunn.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ............................... 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .............................................................. 3
ARGUMENT .............................................................. 5
I. CHILDREN’S UNIQUE LEARNING STYLES
REQUIRE DIVERSITY IN EDUCATIONAL
OPPORTUNITIES. .............................................. 5
II. FAITH-BASED SCHOOLS ARE THE ORIGINAL
INNOVATIVE SCHOOLS AND HAVE LONG
FOCUSED
ON
SERVING
THE
UNDERPRIVILEGED. ....................................... 10
III. INNOVATIVE SCHOOLS—WHETHER FAITHBASED OR NOT—CONTINUE TO PROVIDE
OPPORTUNITIES TO THOSE LEFT BEHIND
BY TRADITIONAL SCHOOLING......................... 14
IV. PARENTS SHOULD BE ABLE TO SELECT
THE BEST SCHOOL FOR THEIR CHILDREN’S
NEEDS............................................................ 18
CONCLUSION ......................................................... 20

ii
TABLE OF AUTHORITIES
Page(s)
Other Authorities
American Missionary Association,
Encyclopedia Britannica,
https://tinyurl.com/2xm55u59 ............................. 10
Back-to-School Statistics, National
Center for Education Statistics,
https://tinyurl.com/5aw5wvav ............................... 3
Carol Ann Tomlinson, Leadership for
Differentiated Classrooms, AASA, The
School Superintendents Association,
https://tinyurl.com/2bf5dzby .................................. 9
Dale McDonald, Annual Statistical
Report on Schools, Enrollment, and
Staffing: United States Catholic
Elementary and Secondary Schools
2006-2007 (2007) .................................................. 10
Different Learning Styles—What Teachers Need to Know, University of Kansas: School of Education & Human
Sciences (June 28, 2021), https://tinyurl.com/p96njfd6 ................................................ 6
Digest of Education Statistics, National
Center for Education Statistics,
https://tinyurl.com/9sm34f92................................. 3
Elin Johnson, Another Drop in College
Readiness, Inside Higher Ed (Nov. 4,
2019), https://tinyurl.com/52vm8htt ..................... 3

iii
G.H. Akers, Proper Education, Adventist
Education 8 (Oct.-Nov. 1993),
https://tinyurl.com/39w5k555 .............................. 11
Gng, Education: One Size No Longer
Has to Fit All, Harvard Business
School (Nov. 17, 2016),
https://tinyurl.com/19t3jda7 .................................. 7
How Does the Work Study Program
Operate?, Verbum Dei High School,
https://tinyurl.com/4ywtprs6 ............................... 13
K-12 Disparity Facts and Statistics,
UNCF, https://tinyurl.com/tyb8r7vm .................... 3
Kathleen Porter-Magee, Catholic on the
Inside: Putting Values Back at the
Center of Education Reform,
Manhattan Institute (Dec. 12, 2019),
https://tinyurl.com/ynzxkzun ............................... 13
Mathematics Framework FAQs, California
Department of Education (July 14,
2021), https://tinyurl.com/pzr2jnk ......................... 8
Neil D. Fleming & Colleen Mills, Not
Another Inventory, Rather a Catalyst for
Reflection, 11 To Improve the Academy
137 (1992), https://tinyurl.com/47sj6vxv ........... 6, 7
Richard M. Jacobs, U.S. Catholic Schools
and the Religious Who Served in
Them: Contributions in the 18th and
19th Centuries, 1 Catholic Education:
A Journal of Inquiry and Practice 364
(1998), https://tinyurl.com/rx2puuyw ................. 11

iv
Rahmatullah Bhatti & William M. Bart,
On the Effect of Learning Style on
Scholastic Achievement, 16 Current
Issues in Education 1 (Aug. 19,
2013), https://tinyurl.com/2wdvezr2 ...................... 6
Rebekah Clayton, The Case Against a OneSize-Fits-All Education, EF Academy
Blog, https://tinyurl.com/qyvzllch.......................... 8
SFUSD Veers Away from Honors Classes,
San Francisco Examiner (Feb. 12,
2012), https://tinyurl.com/rchzv8 ......................... 9
Stephanie Ewert, The Decline in Private
School Enrollment, SEHSD Working
Paper Number FY12–117 (Jan.
2013), https://tinyurl.com/fauhvykx .................... 14
Stephen Petrina, Curriculum and
Instruction For Technology Teachers
(2004), https://tinyurl.com/y7sm7kcp ................... 6
Tara Garcia Mathewson, States
Increasingly Extend Charter-Like
Flexibility to District Schools,
Hechinger Report (Aug. 15, 2019),
https://tinyurl.com/345eh9z4 ................................. 9
Valerie Strauss, Teacher: A One-SizeFits-All Approach to Instruction Is
Stifling Our Classrooms,
Washington Post (Dec. 23, 2016),
https://tinyurl.com/nklk75w0 ............................... 8

v
Vernon C. Polite, Getting the Job Done
Well: African American Students and
Catholic Schools, 61 Journal of
Negro Education 21 (1992), https://tinyurl.com/4vpvv4hc ............................................ 10
What Is Differentiated Instruction?,
Stamford Public Schools, https://tinyurl.com/s9zpe2cn ................................................ 7
White House Domestic Policy Council,
Preserving a Critical National Asset:
America’s Disadvantaged Students and
the Crisis in Faith-based Urban Schools
(2008), https://tinyurl.com/2buv7put................... 12
Why It Works, Cristo Rey Jesuit High
School, https://tinyurl.com/829b8r98 .................. 13
William H. Jeynes, Religion, Intact
Families, and the Achievement Gap,
3 Interdisciplinary Journal of
Research on Religion 1 (2007),
https://tinyurl.com/rr9xs7kt ................................ 12

1
INTEREST OF AMICI CURIAE*
Blaze Kids Academy is in the process of designing
and building a faith-based all-year-around boarding
facility for students from rural parts of the United
States. Children will live in a caring and warm homelike setting while attending Blaze School, an on-site
school that offers a rigorous academic curriculum and
access to competitive extracurricular activities. Blaze
School will serve both local day students as well as
Academy boarding students. Established in 2021,
Blaze currently operates a pilot learning pod for 3rd
through 7th grade students, with the goal of opening
selective enrollment in grades K–8 in 2023. Enrollment will begin at 20 students and increase over time
to 100 students in grades K–12. Blaze School supplements traditional classroom education with hands-on
outdoor programming on the school’s 96-acre campus
in rural Austin, Texas. Blaze Kids Academy and
Blaze School are founded on Judeo-Christian principles with the mission of developing well-rounded citizens of exceptional character who grow to become service-minded individuals.
To this end, Blaze
incorporates prayer and service learning into its curriculum, and Judeo-Christian values are deeply ingrained in its core cultural values.
Build UP is the Nation’s first and only workforce
development model that provides low-income youths
*

Pursuant to Supreme Court Rule 37.6, counsel for amici curiae state that this brief was not authored in whole or in part by
any party or counsel for any party. No person or party other than
amici, their members, or their counsel made a monetary contribution to the preparation or submission of this brief. The parties
have filed blanket consents to the filing of amicus curiae briefs
in accordance with Supreme Court Rule 37.3.

2
career-ready skills through paid apprenticeships with
industry-aligned secondary and early-postsecondary
academic coursework, leading them to become educated, credentialed, and empowered civic leaders, professionals, homeowners, and landlords. Founded in
2018, Build UP operates two campuses in Birmingham, Alabama, and is in the process of opening a third
in Cleveland, Ohio. It currently has approximately 60
students enrolled for the 2021–2022 school year.
Kuumba Preparatory School for the Arts is an African-centered private school located in southeast
Washington, D.C. The school offers a year-round nontraditional program to toddlers, preschoolers, intermediate, and high school students in an intimate setting for academics, culture, and the arts. Its goal is to
assist children in developing their character and artistic talent through holistic education, and to develop
students’ self-awareness through historical and cultural linkages that will fulfill their sense of purpose.
Amici have an interest in this case because they
use innovative and nontraditional methods to educate
the whole student, emphasizing not only academic
performance, but also character development and
community engagement. Because of amici’s holistic
approach to students’ personal and academic growth,
as well as the fact that many of their students depend
on government tuition assistance, the First Circuit’s
decision could affect the type of programs and instruction they offer in the future. In an attempt to ensure
their secular status, such innovative schools might be
forced to forgo some of the very educational methods
that make them so valuable to students in the first
place.

3
INTRODUCTION AND
SUMMARY OF ARGUMENT
The Nation’s educational system is in a rut. The
number of students who graduate high school prepared for college is nearing historic lows. See Elin
Johnson, Another Drop in College Readiness, Inside
Higher
Ed
(Nov.
4,
2019),
https://tinyurl.com/52vm8htt. And far from facilitating the
equality of opportunity on which the American Dream
is premised, the Nation’s educational system is leaving historically disadvantaged groups even farther behind. See K-12 Disparity Facts and Statistics, UNCF,
https://tinyurl.com/tyb8r7vm.
There is no silver bullet for fixing our country’s
flagging educational system. Indeed, there is no one
policy program that can be expected to work for each
of the Nation’s 48.1 million school-age children in each
of our 13,588 school districts. See Back-to-School Statistics, National Center for Education Statistics,
https://tinyurl.com/5aw5wvav; Digest of Education
Statistics, National Center for Education Statistics,
https://tinyurl.com/9sm34f92.
For precisely this reason, it is crucial that educators have the flexibility to experiment with new methods for reaching students who are being left behind,
and that parents have the freedom to select the
schools that give their children the best chance to
achieve their full potential. Offering families educational choice—including the choice to send their children to schools that may take new and innovative approaches to developing intelligent and engaged
citizens—is one of the best ways to address educational inequities and set students up for success.

4
Traditional religious schools have long offered a
model for such education, emphasizing moral and
character development alongside academic coursework. And today, innovative schools—such as amici—
continue this legacy of educating the “whole child”
alongside their religious-school neighbors.
Amici operate innovative schools founded on the
principle that different students learn differently, and
that it is the responsibility of educators to embrace
students’ unique capacities as a tool for learning, not
an obstacle to it. While none of amici is affiliated with
a religious organization, all of them emphasize character development and values-centered learning. One
amicus, for example, incorporates into its curriculum
African-centered concepts, including African history
and culture, as a means to build community and develop the self-awareness of its largely African-American student body. Another amicus supplements inclass learning with paid apprenticeships in students’
neighborhoods, providing students not only practical
learning and an income, but also a connection to—and
investment in—their communities. And yet another
amicus offers students from rural communities a residential program that emphasizes interdisciplinary
learning, social and emotional health, and a connection to nature.
Despite these divergent approaches, each amicus
offers students pathways to thrive in an increasingly
diverse and demanding world. But the greatest challenge remains ensuring that parents and students can
take advantage of the educational opportunities that
are best suited to their needs. Unfortunately, the
First Circuit’s decision imposes unnecessary and arti-

5
ficial constraints on families’ access to these opportunities by excluding from tuition assistance programs
any school that is deemed insufficiently secular. And
the adverse effects of this decision will be most acutely
felt by those who already have the fewest opportunities open to them. The Court should reverse the decision below.
ARGUMENT
I.

CHILDREN’S UNIQUE LEARNING STYLES
REQUIRE DIVERSITY IN EDUCATIONAL
OPPORTUNITIES.

No two children are exactly alike. Even within the
same family, children have different tastes, inclinations, and interests. Siblings can have varying aptitudes and learn in unique ways. While one sibling excels in artistic expression, another may demonstrate
a knack for building and engineering. And these differences don’t disappear at the schoolhouse gate.
Children bring a range of curiosities, talents, and experiences to the classroom that require individual attention and cultivation.
Recognizing these differences, schools across the
country have taken steps to tailor instruction to the
particular needs of individual students within the
classroom, but structural hurdles—from large class
sizes to resource constraints—have hampered their
ability to do so in a widespread and effective way. Accordingly, it is crucial to promote differentiation and
specialization not just within the classroom, but
across schools as well. Parents should be able to
choose from a range of schools that adopt different
techniques aimed at different students with different
needs.

6
The need for choice among schools and pedagogical approaches is rooted in children’s inherently varied educational needs. Although researchers have
posited various taxonomies to describe students’
learning styles, they all agree that different students
learn in different ways. See, e.g., Neil D. Fleming &
Colleen Mills, Not Another Inventory, Rather a Catalyst for Reflection, 11 To Improve the Academy 137,
137 (1992) (noting fifteen different “instruments for
identifying
learning
styles”),
https://tinyurl.com/47sj6vxv. One common typology, for example, classifies students as Visual Learners, Auditory
Learners, Reading/Writing Learners, or Kinesthetic
Learners based on how they most effectively internalize information. See Different Learning Styles—What
Teachers Need to Know, University of Kansas: School
of Education & Human Sciences (June 28, 2021),
https://tinyurl.com/p96njfd6.
A student’s academic achievement is highly correlated to the match between his learning style and the
teaching methods used by his educators. Research
confirms what common sense suggests—“that teachers and administrators are able to improve the quality
of instruction in their schools when they are aware of
the learning styles of their students.” Rahmatullah
Bhatti & William M. Bart, On the Effect of Learning
Style on Scholastic Achievement, 16 Current Issues in
Education 1, 1 (Aug. 19, 2013), https://tinyurl.com/2wdvezr2; see also Stephen Petrina, Curriculum and Instruction For Technology Teachers 91
(2007), https://tinyurl.com/y7sm7kcp (“If we vary our
methods, we have learned, we accommodate a wider
range of learning styles than if we used one method
consistently.”). Indeed, for almost 30 years, it has

7
been understood that learning programs should “empower[ ] students through knowledge of their own
learning styles to adjust their learning behavior” to
maximize classroom success. Fleming & Mills, supra,
at 138.
In response to this research, schools across the
country have endeavored to incorporate differentiated
instruction, tailored to the individual needs of students, into the classroom. In New York City, for example, the City’s Department of Education “launched
iZone, a community of over 300 schools to test innovative classroom methods and technologies with the goal
of ‘designing schools around the needs, interests, and
motivations of individual students, by personalizing
rather than standardizing the model of schooling and
learning.’” Gng, Education: One Size No Longer Has
to Fit All, Harvard Business School (Nov. 17, 2016),
https://tinyurl.com/19t3jda7.
In Connecticut, “[t]eachers in Stamford Public
Schools practice differentiated instruction,” in which
“[e]very student is a unique learner with academic
strengths and weaknesses” and “[c]lassrooms are designed to foster individual exploration, continued
growth and educational independence.” What Is Differentiated Instruction?, Stamford Public Schools,
https://tinyurl.com/s9zpe2cn.
And just this past spring, the California Department of Education announced revisions to its mathematics curriculum aimed at addressing the “differentiated” ways that both “high-achieving students” and
“underserved or marginalized groups of students”

8
learn. Mathematics Framework FAQs, California Department of Education (July 14, 2021), https://tinyurl.com/pzr2jnk.
Despite these promising efforts to account for students’ different learning styles, teachers are necessarily limited in their ability to tailor their methods to
the divergent needs of students within a single classroom. Among other structural limitations, resource
constraints make it difficult for teachers to provide
tailored instruction to large and heterogeneous classes of many different students with many different
needs. See Rebekah Clayton, The Case Against a OneSize-Fits-All Education, EF Academy Blog, https://tinyurl.com/qyvzllch (“Many schools use only a single
mode of teaching because, in practice, the resource[s]
required to create a varied learning experience is different from that of writing a lecture or creating a PowerPoint.”). And concerns about quality control incentivize administrators to maintain fixed standards
across classrooms at the expense of individualization.
See Valerie Strauss, Teacher: A One-Size-Fits-All Approach to Instruction Is Stifling Our Classrooms,
Washington Post (Dec. 23, 2016), https://tinyurl.com/nklk75w0 (“In an effort to minimize gaps in
teacher quality, some education reformers are pushing a routinized, one-size-fits-all approach to instruction and classroom culture.”).
Moreover, even students with similar learning
styles will arrive at school with different experiences,
interests, and aptitudes. A brilliant student will
struggle to keep up in a classroom where she is not
fluent in the language of instruction. And a student
who was underprepared by a previous teacher or
school may require additional attention to get up to

9
speed. Conversely, a student with considerable outof-classroom preparation and experience may find it
difficult to pay attention if she does not find the curriculum stimulating. As one commentator observed,
the challenge is how to “provide access for struggling
learners to high-level, potent and engaging learning
opportunities without denying the needs of highly
able learners to work at a pace and level of complexity
appropriate to their special learning needs[.]” Carol
Ann Tomlinson, Leadership for Differentiated Classrooms, AASA, The School Superintendents Association, https://tinyurl.com/2bf5dzby; see also SFUSD
Veers Away from Honors Classes, San Francisco Examiner (Feb. 12, 2012), https://tinyurl.com/rchzv8 (“In
diverse classes, teachers can adjust lessons to fit different children, whether they need enrichment or extra help with the basics. But this approach, called ‘differentiated instruction,’ can be difficult when class
sizes are large and the range of abilities wide.”).
Given students’ divergent needs and the hurdles
to addressing them all in one school program—let
alone one classroom—it is imperative to foster differentiation among schools, and to allow parents to select
the school that best fits the needs of their children.
Some public school systems have already taken steps
to do this. In Massachusetts, which has extended to
public schools the flexibility typically afforded to charter schools, one district school “has used its flexibility
to create a bilingual high school for a predominantly
Latino student body, giving immigrant students a way
to excel academically while they learn English and
American-born Latinos a way to connect with their
culture through language.” Tara Garcia Mathewson,
States Increasingly Extend Charter-Like Flexibility to

10
District Schools, Hechinger Report (Aug. 15, 2019),
https://tinyurl.com/345eh9z4. Another “adopted a trimester system to accept kindergartners three times
per year, once they turn 5, changing a traditional cutoff that requires kids turning 5 after Sept. 1 to wait
an entire year to start school.” Id.
But such innovation is still the exception rather
than the rule within traditional schools. As a result,
most innovation aimed at providing targeted education is occurring in the private sphere—including in
innovative schools like those operated by amici.
II. FAITH-BASED SCHOOLS ARE THE ORIGINAL
INNOVATIVE SCHOOLS AND HAVE LONG
FOCUSED
ON
SERVING
THE
UNDERPRIVILEGED.
Since the Founding, schools run by religious communities have been a vital part of our Nation’s educational system. While other schools catered either to a
moneyed clientele or powerful political constituencies,
religious schools made it their mission to educate the
disenfranchised and underprivileged.
For example, “[l]arge numbers of Catholic schools
were built in the older industrial cities of the Nation
to serve the children of immigrants,” Dale McDonald,
Annual Statistical Report on Schools, Enrollment, and
Staffing: United States Catholic Elementary and Secondary Schools 2006-2007 ix (2007), and many religious schools, both Protestant and Catholic, welcomed
Black students years before their neighboring public
school counterparts. See American Missionary Association,
Encyclopedia
Britannica,
https://tinyurl.com/2xm55u59 (discussing the network of over

11
500 schools for freed slaves created by a non-denominational Christian association); Vernon C. Polite, Getting the Job Done Well: African American Students
and Catholic Schools, 61 Journal of Negro Education
211, 211 (1992), https://tinyurl.com/4vpvv4hc (“Catholic religious communities opened an impressive number of 76 schools for African American children at the
turn of the century between 1890 and 1917.”).
Over time, instructors at religious schools developed innovative teaching and classroom-management
methods that helped students from disadvantaged
backgrounds thrive academically—whether in the
form of longer schools hours, an emphasis on valuescentered learning, or any number of other unique
school policies. See Richard M. Jacobs, U.S. Catholic
Schools and the Religious Who Served in Them: Contributions in the 18th and 19th Centuries, 1 Catholic
Education: A Journal of Inquiry and Practice 364, 369
(1998), https://tinyurl.com/rx2puuyw (“By providing a
less costly alternative to lay educators . . . religious
communities of the 18th and 19th centuries made it
possible for Catholic schools not only to survive, but
also to extend educational services to some of the most
marginalized members of American society.”); G.H.
Akers, Proper Education, Adventist Education 8, 37
(Oct.-Nov. 1989), https://tinyurl.com/39w5k555 (“Balance of physical, mental, and spiritual activities was
an absolute imperative in the Ellen White model [of
Christian education], and recognition that education
is more than a ‘head trip.’ The heart and hand were
to be equally involved, and where possible the balancing digressions from mental exertion were to be significant activity that was truly recreative and regenerative.”).

12
It is therefore no surprise that “[g]roundbreaking
studies by eminent sociologist James Coleman and his
colleagues in the 1980s found that students in Catholic and other private schools, including non-Catholic
faith-based schools, had higher achievement than students from comparable backgrounds in public
schools.” White House Domestic Policy Council, Preserving a Critical National Asset: America’s Disadvantaged Students and the Crisis in Faith-based Urban
Schools 7 (2008), https://tinyurl.com/2buv7put; see
also id. at 80–81 (finding that faith-based schools
have a uniquely powerful impact on students from
lower socioeconomic backgrounds, with their benefits
increasing in proportion to students’ economic disadvantage); William H. Jeynes, Religion, Intact Families, and the Achievement Gap, 3 Interdisciplinary
Journal of Research on Religion 1, 7 (2007), https://tinyurl.com/rr9xs7kt (“[C]hildren in the lowest [socioeconomic-status] quartile who attend religious schools
achieve at higher levels than do children in the lowest
[socioeconomic-status] quartile who attend public
schools.”).
Still today, “[f]or many urban parents, the moral
grounding, community ethic, safe and structured environment, and academic rigor of faith-based schools
are invaluable to their children.” Preserving a Critical
National Asset, supra, at 1. Religious schools remain
at the forefront of developing new ways to serve all
students, including those from underprivileged backgrounds.
For example, Verbum Dei High School in the
Watts neighborhood of Los Angeles, California, and
Cristo Rey Jesuit High School in Minneapolis, Minne-

13
sota, are two of a number of innovative Catholic preparatory schools that offer a Corporate Work Study
Program, allowing students to combine a full academic course load with on-the-job work experience in
a corporate office (typically one day per week). See
How Does the Work Study Program Operate?, Verbum
Dei High School, https://tinyurl.com/4ywtprs6; Why It
Works, Cristo Rey Jesuit High School, https://tinyurl.com/829b8r98.
Such programs provide students the ability to
earn a significant portion of the tuition for their private, college-preparatory education, as well as the opportunity to gain important skills to prepare them for
a white-collar profession. And both schools boast an
impressive 100% college-acceptance rate—much
higher than traditional schools in the surrounding
area.
Religious schools provide benefits not only for the
students who attend them, but also for the educational system more broadly. It is not uncommon for
secular schools to incorporate into their own curricula
methodologies that were pioneered in religious
schools. For example, Eva Moskowitz, the founder of
Success Academy, a much-lauded network of 45 innovative public charter schools in New York City, has
discussed the influence of Catholic schooling on the
Success Academy model. Kathleen Porter-Magee,
Catholic on the Inside: Putting Values Back at the Center of Education Reform 5, Manhattan Institute (Dec.
12, 2019), https://tinyurl.com/ynzxkzun.
In recent years, however, religious schools in the
United States have seen a decline in enrollment, and
many have shut their doors forever. Stephanie Ewert,

14
The Decline in Private School Enrollment, SEHSD
Working Paper Number FY12–117, at 14 (Jan. 2013),
https://tinyurl.com/fauhvykx. The First Circuit’s decision will likely hasten the decline, as fewer families
will be able to afford religious education without financial assistance. And declining enrollment at religiously affiliated schools will not only affect the families who would choose to enroll their children there,
but also the thousands of families whose children attend other innovative schools that, although not religiously affiliated, are the pedagogical heirs of their religious counterparts.
III. INNOVATIVE SCHOOLS—WHETHER FAITHBASED OR NOT—CONTINUE TO PROVIDE
OPPORTUNITIES TO THOSE LEFT BEHIND BY
TRADITIONAL SCHOOLING.
Today, innovative schools continue to serve students that have been left behind by the traditional
schooling model. Some innovative schools are affiliated with a particular religious denomination or espouse an overtly religious mission, while others take
inspiration from a religious heritage without teaching
a particular faith, and still others are entirely secular.
But none is values-neutral.
Amici are representative of the diversity of innovative schools operating today. Two amici, Kuumba
Preparatory School of the Arts and Build UP, focus on
moral and cultural development and the promotion of
a positive social vision but are not affiliated with any
particular faith community and do not profess to be
“faith-based.” The third amicus, Blaze Kids Academy,
is not affiliated with a particular religious group but

15
considers itself “faith-based” in the sense that its values are informed by Judeo-Christian principles and
the school day begins with a nondenominational
prayer.
Kuumba Preparatory School of the Arts is an African-centered private school located in southeast
Washington, D.C. that enrolls students from toddlers
to high school seniors. Taking its name from the Swahili word for “creativity,” Kuumba’s mission is “to develop the Artist/Scholar” by using the arts to stimulate learning and harness the power of theater, music,
dance, poetry, and song to develop the whole child.
Serving a predominantly African-American population, Kuumba aims to develop students’ self-awareness and sense of purpose by incorporating Africancentered concepts into its core curriculum. Kuumba
also teaches African languages and culture. And
while Kuumba’s year-round program is rigorous, the
school takes a holistic approach to education by prioritizing not only academic performance, but also artistic talent and character development, supplementing
classroom learning with daily meditation and exercise.
Even for a school like Kuumba, which is not expressly religious yet aims to instill a sense of cultural
pride in its student body, Maine’s law poses potential
issues. In many cases, it is difficult if not impossible
to separate religion from culture, especially in the
realm of the arts. To preserve their status as a secular
institution in Maine’s eyes, schools like Kuumba
might forgo some of the very programs and teaching
methods that are the key to their success. For example, Kuumba might reconsider teaching its students

16
songs or stories with roots in a certain African religious traditions—even if those songs or stories would
serve an important role in fostering students’ positive
self-identity and understanding their heritage.
Build UP, a private school headquartered in Birmingham, Alabama, is the nation’s first and only
workforce development high school that provides lowincome youth with career-ready skills through paid
apprenticeships, leading them to become educated,
credentialed, and engaged civic leaders, workers,
homeowners, and landlords. Over the course of six
years starting in the ninth grade, students in Build
UP’s full-time program spend half their time in an academic setting and half their time rehabilitating
abandoned homes into like-new single-family homes
and duplexes. At the end of the six-year program, the
students earn both a high school diploma and an associate’s degree in their chosen fields—and also purchase with a zero-interest mortgage the deed to at
least one of the properties they have rehabilitated. In
this way, Build UP’s students revitalize their communities and prevent the further erosion of surrounding
property values. And by taking ownership of those
properties upon graduation, students gain an important link to—and investment in—their neighborhoods.
Although Build UP, like Kuumba, is not religiously affiliated, its classes are taught in a local Baptist church that the students helped to remodel, and
which the organization continues to maintain in exchange for rent-free use of the building. Build UP, too,
could be impacted by laws like the one adopted by
Maine insofar as it might hesitate to preserve or forge

17
such valuable relationships with faith-based institutions for the sake of preserving its secular status.
Finally, Blaze Kids Academy, located outside of
Austin, Texas, showcases how Maine’s law can impede new and innovative programs that are still in
their infancy. Blaze, which has not yet opened its
doors to a full class of students, plans to operate as a
year-round private boarding school, serving underprivileged children from rural communities across the
United States. Blaze features a highly interdisciplinary and outdoors-based approach to the core subjects, with opportunities to study in the gardens and
along the creek of the school’s 96-acre ranch. Blaze’s
curriculum will also focus on fostering strong social
and emotional executive functioning skills. For example, students will help facilitate parent-teacher conferences in order to take ownership over their education.
While the Blaze leadership team currently conceives of the school as “faith-based,” it has yet to decide what role (if any) formal religious instruction will
play at the school. Because Blaze intends to serve students from rural areas across the country, and because it believes that many students in its target demographic will require tuition assistance to attend,
the outcome of this case could play a significant role
in Blaze’s ultimate decision regarding how to treat religion in its classrooms.
As amici demonstrate, this case will have ramifications beyond religiously affiliated educational institutions such as Catholic schools. Innovative schooling
writ large would suffer, too, should Maine’s law be upheld. Many innovative schools emphasize the moral

18
and cultural development of their student body, and
drawing the line between where morals and culture
end and faith begins can be a difficult task. Given
that there are no clear guidelines, innovative schools
might shy away from some of the educational methods
and institutional values that drive their success lest
they risk disqualifying their students from critical financial assistance.
IV. PARENTS SHOULD BE ABLE TO SELECT THE
BEST SCHOOL FOR THEIR CHILDREN’S
NEEDS.
Parents know their children best, and in selecting
the appropriate school to meet their children’s needs,
parents shouldn’t be restricted by arbitrary distinctions and opaque standards. The First Circuit’s decision in this case imposes just these kinds of artificial
and unnecessary constraints on parents’ ability to
choose the schools best suited to their children’s individualized needs. Regrettably, the decision will have
the perverse effect of blocking funding from those students who are most likely to benefit from innovative
schools, and it will chill creativity and experimentation by schools that fear such experimentation may result in their students losing access to critical tuition
assistance.
Precisely because these schools go beyond traditional academics to cultivate character and community, they are less amenable to bright-line divides between the secular and the religious. While none of
amici is religiously affiliated, each builds upon the
moral and religious precepts of the communities it
serves to instill integrity and a sense of belonging in
its students. For example, Blaze incorporates prayer

19
as part of its focus on character development, and
Build UP’s classrooms are located in the Abyssinia
Missionary Baptist Church, where students help
maintain the building in lieu of paying rent.
Of course, the underserved and marginalized communities that have the most to gain from innovative
schools that emphasize character development alongside academic achievement are also those least able to
access these options without financial assistance.
Most of Build UP’s students receive financial assistance from state-approved Scholarship Granting Organizations under the Alabama Accountability Act of
2013, and many K–12 students at Kuumba receive assistance through Washington, D.C.’s Opportunity
Scholarships. Likewise, Blaze anticipates that its students’ families will need to rely on Texas’s public tuition assistance program to cover or supplement their
individual contributions. Limiting these programs to
schools that conform to their respective jurisdiction’s
standards of secularity may well force parents to move
their children into schools that are less well suited to
their families’ needs.
But it will not only be the individual students at
these particular schools who lose. Innovative schools
are a proving ground for new pedagogical methods
that could, if successful, expand to new contexts. But
if these schools fear that their innovative methods
may compromise their students’ ability to secure vital
tuition assistance from public sources, they will likely
abandon those plans to the detriment of the broader
community.
There is no reason to invite these adverse consequences. Parents are more than capable of evaluating

20
the needs of their children and selecting the best
schools to meet those needs. In some cases, those
needs will be best served by traditional public schools;
in others, they will be better served by secular private
or charter schools; and in still others, students will
thrive in religious or innovative schools. The government should not force parents to choose one type of
school over another. Nor should it deny parents access to a school that offers their children the greatest
opportunity to reach their full potential.
CONCLUSION
For the foregoing reasons, the judgment of the
First Circuit should be reversed.
Respectfully submitted,
ALLYSON N. HO
Counsel of Record
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP GIBSON, DUNN & CRUTCHER LLP
2100 McKinney Avenue,
333 South Grand Avenue
Los Angeles, California 90071 Suite 1100
Dallas, Texas 75201
(213) 229-7204
(214) 698-3100
seckman@gibsondunn.com
aho@gibsondunn.com
JOHN MATTHEW BUTLER
MACEY L. OLAVE
GIBSON, DUNN & CRUTCHER LLP GIBSON, DUNN & CRUTCHER LLP
555 Mission Street, Suite 3000 1050 Connecticut Avenue, NW
San Francisco, California 94105 Washington, D.C. 20036
(415) 393-8200
(202) 955-8500
molave@gibsondunn.com
mbutler@gibsondunn.com
Counsel for Amici Curiae

September 10, 2021

